Supreme Court, U.S.
FILED

• DEC 2 9 2020
OFFICE OF THE CLERK

’-ar

Mo.

IN THE
SUPREME COURT OF THE UNITED STATES

Thomas Hoey, Jr.

- PETITIONER

(Your Name)
vs.

United States of America

- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Second Circuit Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Thomas Hoey, Jr.
(Your Name)

Fort Dix F.C.I. > P° Box 2000
(Address)

Joint Base MDL, New Jersey

08640

(City, State, Zip Code)

(609)723-1100 -Main No. Prison
(Phone Number)

RECEIVED
JAN 1 5 2021
SUplREMEFCOimTLF.RoK

QUESTION(S) PRESENTED
1-Should lower courts be permitted to interpret the plain text
and meaning of sentencing commission's provisions to inflict
harsher punishment upon petitioner?
Did the lower courts err when refusing to adhere to the plain
text of U.S.S.G. grouping provision 3D1.2 and prior precedents
because "there is no binding precedent from the Supreme Court?"

2-Is petitioner's indictment tainted by a violation of the
attorney-client privilege and violations of Title 18 U.S.C. §207
and 208 conflict of interest laws?
Was petitioner's indictment tainted by improper influence by the
victim in this cases brother, a former Special agent in charge
DEA, in violation of petitioner's Fifth, Sixth, and Fourteenth
Amendment rights?

1

LIST OF PARTIES

[x | All parties appeal- in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

18-3338, 2nd Circuit Court of Appeals
l:ll-cr-00337-PKC, Southern District of New York '
13-Mc-189(Part 1), Southern District of New York

ii

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

US v.. Braniff Airways, 428 F.Supp. 579,583(WD Tex.1977)
US v. Alu, 246 F.2d 29(2nd Cir.1957)
US v. Hawkins, 931 F.2d 1256, 1264-65 (8th cir.1991)
In re Grand Jury Subpoena March 20, 2013 2014 US dist.
LEXIS fi 91901, Case 13-MC-189(part 1)(SDNY 2014)
Patrice Taylor, Appellant Dist. of Columbia Court of
Appeals, 73 A. 3d 85; 2013 D.C. App.LEXIS 435, no.
10-PM-1167, June 12, 2012 argued, August 1, 2013 decidedO
Pounders v. Watson,'521 US 982, 988, 117 S.Ct. 2359,
138 L.Ed 2d 076 (1977)
US v. Treadway, 445 F. Supp. 959 (N.D. Tex.1978)
STATUTES AND RULES
3D1.2(b), & (c)

8
8
5
8

9-10
6
8

3C1.1
Code of Professional Responsibility DR-5-101(B)
Federal Rule of Criminal Procedure 6(d)
Title 18 U.S.C. § 207 & 208

4
5
7
7
8

OTHER
The Consolation of Philosophy- Boethius, dated 524 A.D.
The Prince-Machiavelli

10
11

• • •
in

TABLE OF CONTENTS

•A

1

OPINIONS BELOW
2

JURISDICTION
3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

4-11

REASONS FOR GRANTING THE WRIT

1-2
13....

CONCLUSION

INDEX TO APPENDICES
APPENDIX A
xase 18-3338

Mandate 2nd Circuit Court of Appeals
Al-11

APPENDIX B Southern Dist. of New York case
l:ll-cr-00337-PKC
APPENDIX C
(part 1)

Bl-66

Southern Dist. of NY case 13-MC-189
Cl-9

APPENDIX D Petitioner's Brief , 2nd Cir. Court
of Appeals case 18-3338

Dl-15

APPENDIX E Stein hearing transcript, case
13-MC-189(part 1)

El-3

APPENDIX F . Government Brief, 2nd cir. App. ct.
case 18-3338
Appendix G

DEA email chain with AUSAS

iv

Fl-3
G-l

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

fx.l For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
Ixfc reported at 19-3338(2nd Cir. App ct«)2020
Qr

^

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported
1 ;ll-cr-00337-PKC(SDNY 2019(2015)^

^

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ 1 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
(. ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 18. 2020
[ ] No petition for rehearing was timely filed in my case.
[x ] A. timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: —9/25/2020order denying rehearing appeal's at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No., ... A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

5L

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Fifth, Sixth, & Fourteenth Amendments to the United St^tese
Constitution

3

STATEMENT OF CASE(Question #1)
The district court erred, and the Second Circuit Court of
Appeals refused to adhere to plain text of the United States
Sentencing Guidelines provision 3D1.2, that requires under
subsection (b) that counts are grouped together because "the
societal interests that are harmed are closely related."(See
Application note 2, USSG 3D1.2(b)). The Second Circuit also
refused to acknowledge petitioner's alternative argument that
subsection (c) applies because Count II and Count III embody
"conduct that is treated as a specific offense characteristic
in, or other adjustment to, the guideline applicable to another
of the counts," requiring grouping.(See subsection (c) of USSG
3D1.2)(See Probation Dept.'s Calculation, Appendix D-15)
The Second Circuit reasoned, "How multiple counts should be
grouped is an open question in this Circuit." And " • • • given the
lack of contrary case law from the Supreme Court or this Court,
the district court did not plainly err in its guidelines
calculation."(See Appendix A-8)
This Court should be aware that the Second Circuit has
INDEED taken the petitioner's position in Us v. Leung, 360 F.3d
62 (2nd Cir. 2004) by reversing and remanding Leung's sentencing
because the district court had divided the defendant's
convictions "into two groups: the first consisting of the Hawaii
passport fraud, bail jumping, and obstruction of justice counts,
and the second containing solely the New York State passport
fraud count." Leung contended that all counts should have been
been placed in a single count pursuant to 3D1.2(c). Leung
contended that by failing to do so the district court had
impermissibly double counted the obstructive conduct, that
resulted in a one-level increase in his combined offense level,
because the obstructive conduct had been counted both to create
the first group, and then increase the offense level for the
second. The Second Circuit agreed.
Petitioner pleads with this Honorable Court to reverse and
remand this case back to the district court with specific
instructions that they adhere to the prior precedent in Leung

H

and the Eigth Circuit's precedent in US v. Hawkins, 931 F.2d
1256, 1264-65 (8th Circuit 1991)(court erred in failing to group
bank robbery and escape counts under subsection (c) where court
enhanced bank robbery count two by levels under 3C1.1 based on
conduct underlying the escape count).
Petitioner argues this is precisely what happened in his
case. The district court grouped count one and two together, and
put count three in its own group, contrary to the PSR and the
plea agreement. This error resulted in a two-level harsher
punishment and sentence upon petitioner. Petitioner argues all
of his counts should have been placed in a single group, as
provided for and found by the Probation Department in its PSR.
(See Appendix D-15) I humbly plead to this Court for relief for
myself and all that suffer and will suffer harsher punishments
due to the lower courts refusal to adhere to the plain text of
the sentencing commissions guideline provisions.

5

Statement of Gase(Question #2)
The lower courts erred by allowing am indictment,
prosecution, and sentencing of petitioner, after learning of
violation of the attorney-client privilege in the grand jury,
arid the illegal, influence and improper actions by the victim in
this case's brother, Arthur Anderson, a former Special Agent in
Charge of the DEA, who was "pressing" the agents during the
investigation prior to petitioner's indictment and arrest. The
DEA agents that were being improperly "pressed" by Anderson
disclosed later that they had NO evidence of "drug activities
relating to petitioner".(See DEA Email chain marked as Appendix
G-l)
The Fifth, Sixth and,Fourteenth Amendments of the
Constitution guarantee a criminal "defendant adequate
protections, including... a disinterested prosecutor, and
impartial decision-maker..."(See Pounders v. Watson, 521 US S82,
988, 117 Supreme Court 2359, 138 L.Ed 2d 076 (1977)). "It is a
fundamental premise of our society that the state wield its
formidable criminal enforcement powers in a rigourously
disinterested fashion."(See Young v. United States ex rel
Vuitton et Fils S.A., 481 US 787, 810, 107 S.Ct. 2124, 95 L.Ed
2d 740 (1987).
Prior to petitioner's indictment, Anderson was "pressing"
his former subordinates and friends at the DEA regarding the
accidental overdose death of his sister, Kim Calo. "On February
11, 2013, this "pressing" by Anderson led Agent Gregory Finning,
SAC DEA, Agent Eric Baldus, DEA, and Agent Kristen Krause,
Homeland Security to the home of petitioner's lawyer's
investigator, Deidre Johnson.""Once inside Johnson's apartment,
the agents improperly spoke for over two hours about petitioner
and his defense."(See Judge Sidney Stein's Opinion, Appendix O
5) "At some point during the conversation, Agent Baldus served
johnson with a subpoena to appear in the Grand Jury." "At some
point during the interview, conversation turned to the file
Johnson kept concerning petitioner's case.""Johnson turned over
petitioner's entire defense files to Agent Baldus."(See Stein

&

opinion C-5) "The day after Johnson's meeting with agents, she
told petitioner's lawyer that she had spoken with government
agents and provided them a copy of her case file."(See Stein
Appendix C-5) Petitioner "On May 31, 2013, filed a motion to
intervene and to quash the grand jury subpoena."(See Stein
opinion C6-7)"The Court concludes that communications between
Johnson and Hoey are privileged pursuant to the so-called Kovel
exception."(See Stein opinion C-7) Judge Stein ruled that,
"Johnson was acting as Lawyer's agent with Hoey, as the ultimate
principle. Therefore, the Kovel exception appliescommunications between Hoey and Johnson for the purpose of
obtaining legal advice from Lawyer are privileged."(See Stein's
Ruling, Appendix C-9) It is for this reason petitioner moves
this Honorable Court to Vacate petitioner's indictment. Under
these circumstances, the government lawyers and agents should, be
disqualified from appearing before the grand jury in
petitioner's case. The Code of Professional Responsibility fully
applicable to•government's lawyers here, that "a lawyer shall
not accept employment, or pending litigation, if ha knows or it
is obvious that he ought to be called as a witness."(See Code of
Professional Responsibility DR-5-101(B).) These US Attorneys
were subject to being called as witnesses at a "taint hearing".
Petitioner also argues that the government lawyers in this case
should be disqualified pursuant to Federal Rule of Criminal
Procedure 6(d)(presence of an unauthorized person before a grand
jury), because the information they gleaned from Johnson was
privileged, and altered, shaped, or led to questions presented
to petitioner's grand jury indictment, the indictment must be
dismissed. Here there is no question agents gleaned petitioner's
privileged communications that they shared with the US Attorney
on February 11, 2013, before petitioner's indictment on December
12, 2013. Of course the US Attorney could have cured this by
creating a "chinese wall" between those exposed to petitioner's
attorney-client privileged information. They chose to ignore
petitioner's Fifth, Sixth and Fourteenth Amendment rights to due
process and moved to indict petitioner without seeking the
-1

1 With the motion to quash sub judice, the same prosecutors here
without seeking the court's permission, indicted petitioner.

1

court's permission. It is clear that these provisions of the
Code govern government lawyers. Their applicability was decided
by the Second Circuit in US v. Alu, 246 F.2d 29 (2nd Gir. 1957).
At least two federal courts have quashed indictments because of
violations of the principle of separation between the government
attorney as prosecutor and as witness.(See US v. Treadway, 445
F.Supp. 959 (N.D. Texas l978)and(See US v. Braniff Airways, 428
F. Supp. 579, 583 (W.D. Texas 1977)
Very troubling, petitioner's lawyer complained to the
O.P.K. about Finning1s actions. After that complaint was filed,
Agent Gregory Finning testified that he indeed was the lead
agent in charge of the DEA investigation of petitioner, but he
was "recently re-assigned to the Office of Professional
Responsibility" and now his "job is to investigate misconduct
and criminal wrongdoing by DEA agents.(See Stein Hearing August
2, 2013, case 13-MC-189(Part 1) SONY) Who exactly would
investigate Finning's actions, now he himself oversees
misconduct of agents? Finning testified that Anderson had called
him on his cell phone about this case during the investigation.
"He called me recently, in like the last 2 weeks."(See
Transcript of Stein hearing, August 2, 2013, Appendix E-2) When
petitioner's lawyer asked, "Had nothing to do with this case,
though, right?" Finning testified, "It did." When petitioner's
lawyer asked Finning, "Would it be fair to say that Artie
Anderson was deeply interested in getting to the bottom of the
death of his sister?" Finning testified, "Yes." Petitioner's
lawyer then asked, "And that he was pressing you and your
colleagues to do that?" Finning testified, "Yes."(See Appendix
E2-3) Petitioner argued to the Second Circuit in his appeal that
Anderson should be held accountable to violations of Title 18
U.S.C. § 207.(See Appendix D1-D8) The government argued,"Hoey
fails to cite any lav? giving Judge Castel or this Court the
authority to order an investigation or dismiss indictment
because a former lav; enforcement agent urged the
investigation."(See government brief, Appendix F-3) These
shocking admissions, by an investigator from the O.P.R. in

a

Washington, D.C., proves that Anderson intended to influence
Finning, and deny petitioner his right to an investigation free
of his intentional bias. Anderson used his connections to taint
and. alter an ongoing investigation with his own emotional bias,
That's not all, Anderson had brought a civil lawsuit against
petitioner for wrongful death of his sister. (That lawsuit was
settled for over a million dollars by petitioner's insurance
company in 2019)
Petitioner argues that Anderson's motivation to win millions
of dollars in the civil case led bins to cross the line by
"pressing" the agents in this matter resulted, in petitioner
being denied his rights to due process, guaranteed by the
Constitution, and an "impartial decision-maker."(See Pounders at
988 id.)(Sea the Fifth, Sixth, and Fourteenth Amendment to the
Const!tution)
Petitioner did file a Motion to vacate his plea of guiltyafter learning that his lawyer, Joseph Conway, was a longtime
friend and colleague of Arthur Anderson.
Petitioner pleads with this Court to reverse conviction and
sentence, and remand to the district court for further
proceedings, or alternatively dismiss indictment due to the fact
that Anderson, "harnessed the machinery of the criminal justice
system for (his) own personal ends."(Sea Patrice Taylor,
Appellant District of Columbia Court of Appeals, 73 A. 3d 85;
2013'D.C. App. LEXIS 435, no.10-PM-1167, June 12, 2012 argued,
August 1, 2013 decided.) In Taylor, the Court of Appeals
reasoned that, "We have no doubt that if the Metropolitan Police
Department allowed any citizen to grab a badge, a gun, and a
cruiser to go out and resolve personal disputes, it would
undermine the public's interest in their operations.""So too, it
reflects poorly on the courts to allow private citizens to
harness the machinery of the criminal justice system for their
own personal ends.""We do not think the public would be pleased
to know that, in funding the operations of the courts with its
tax dollars, it also funded this private feud.""We expect that
the public would be shocked to know that one private citizen

S

could send another.- to jail."(See Taylor at 73 A. 3d at 106 id.)
This is precisely what happened in petitioner’s case nov? bofore
this Court. I really was the largest Banana wholesaler and
ripener in New York prior to my arrest. I was never convicted of
any crime until I met Anderson's 41 year old sister for the
first time at 420am in my hotel room. I was denied my rights
when Anderson's former subordinates pressed a case with "no
evidence of drug activity related to hoeyn.(See Agent Baldus'
email to the US Attorneys, Appendix G-l) I do not sell drugs.
The district court stated this at petitioner’s sentence,
"Lifestyle is an accurate way to describe this defendant's
criminality..."These were not sales (of cocaine) but
distributions to social friends, would be friends, acquaintances
and hanger-oners."”it was not done for monetary gain. It was
done to support his social stature, to attract women, and in
other words, the cocaine distribution was integral to his
lifestyle."(See district court at petitioner's sentence Appendix
G55)
With an ever growing number of federal agents and
employees, all with their own private disputes happening, I
plead with this Court that the abuse of power by Anderson and
the entire prosecution team. They stole my attorney-client files
and communications. Abuse by agents in this matter happens to
many criminal defendants, I am sure it happens to many
unknowingly. Sadly, this injustice has fallen on deaf ears.
Mostly because in the Second Circuit Court of Appeals it appears
Anderson has a friend and former colleague, Second Circuit Panel
Judge Gerard Lynch, who happens to be Anderson's fomer boss,
when Lynch was the Chief of the Criminal Division at the U.S
Attorney's Office for the Southern District of New York.
"Everyone knows the horrors done by Nero"..."When the evil
sword of power is joined to the poison of passion, the
commonwealth groans under an intolerable buirden."(See The
Consolation of Philosophy"-Boethius, Dated 524 A.D.) I do have
faith that we have come a LONG way in the last 1500 years since
the wrongful imprisonment of Boethius. I have faith in our

\&

system, and ultimata faith in Out Supremo Court > so that we
never suffer because v/e failed to remember the past, and thus
"condemned to relive it."-The Prince, Machlaveili. I pray for
relief.

REASONS FOR GRANTING THE PETITION
I think it is important for this Court to hear this case because
there needs to be uniformity within the lower courts regarding
how they apply/interpret the United States Sentencing guide­
lines, because it effects so many criminal defendants at sentencing.
Sadly, many fellas suffer harsher punishments unknowingly. I humbly
assert that direction from the Supreme Court will put an end
to this unfair penalty to already harsh sentences.
I think the Country is at a time when blood-thirsty foes scrutinize
each other in search of bringing criminal charges against one
another. I think my case will bring National attention that this
unfair abuse of position MUST stop. Emotion should play no role
in a Federal criminal investigation or prosecution. Sadly, it
appears to be very evident at ALL levels of government. Foes
looking to use their influence with the US Attorney's Office to
"harness the machinery of the criminal Justice system for their
own personal ends." i am not upset with Mr. Anderson. I am
grateful for all that I've learned through this experience.
Most importantly to view others fairly, and not easily look
to scrutinize my fellow Americans the way I might have before
my incarceration.

/a

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Thom (8'"'Hoey, Jr.

Date: December 22, 2020

